HHS/OIG - Audit, "Audit of Post Retirement Benefit Costs Claimed by Transamerica Occidental Life Insurance Company," (A-07-02-03007)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Post Retirement Benefit Costs Claimed by Transamerica Occidental
Life Insurance Company," (A-07-02-03007)
May 14, 2002
Complete
Text of Report is available in PDF format (1.58 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Transamerica Occidental Life Insurance Company (TOLIC) was a Medicare contractor
until its contract was terminated in 2000 and, as such, was allowed to claim
Medicare reimbursement for its Medicare employees' post retirement benefit (PRB)
costs.  However, regulations provide that, to be allowable, PRB costs must
be funded by the time set for filing for Federal income tax return or any extension
thereof.  The PRB costs assigned to the current year, but not funded by
the tax return time, are not allowable in any subsequent year.  Since TOLIC's
claims was based on unfunded costs, we recommended that TOLIC withdraw its claim
of approximately $3.1 million for PRB costs.